AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

   SOUTHWEST BORDER PROSECUTION

    INITIATIVE FUNDING RECEIVED BY 

          DALLAS COUNTY, TEXAS 



        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



       Audit Report GR-60-12-010 

               March 2012

               AUDIT OF OFFICE OF JUSTICE PROGRAMS 

                 SOUTHWEST BORDER PROSECUTION 

                 INITIATIVE FUNDING RECEIVED BY 

                      DALLAS COUNTY, TEXAS 


                          EXECUTIVE SUMMARY 



       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Dallas County, Texas. From fiscal years (FYs) 2007 through 2008 and for
FY 2010, Dallas County received SWBPI funding totaling $891,077. Dallas
County also requested $1,306,584 in SWBPI funding for FY 2009. However,
based on a review conducted by OJP, $1,223,217 of the amount requested
was found to be unsupported and unallowable and was deobligated. The
remaining $83,367 in SWBPI funding requested by Dallas County for
FY 2009 had been approved by OJP but not yet reimbursed.

       Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces such as the High Intensity Drug Trafficking
Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces
(OCDETF). Many U.S. Attorneys have developed prosecution guidelines that
govern the most common violations of federal law. These prosecution
guidelines are used by law enforcement agencies to determine whether to
file a case in federal, state, or county court. As a result, many federally
initiated cases occurring near the southwest border are referred to the state
or county for prosecution.

       The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. The SWBPI reimburses the eligible
applicants for costs incurred during prosecution for three major categories
based on the types of services provided: (1) prosecution only, (2) pre-trial
detention only, and (3) both prosecution and pre-trial detention.
Reimbursements received from SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law. For
FY 2012, Congress appropriated $10 million for Border Prosecution
Initiatives that includes both SWBPI and the Northern Border Prosecution
Initiative.
      The objective of our audit was to determine if the SWBPI
reimbursements received by Dallas County were allowable, supported, and
in accordance with applicable laws, regulations, and terms and conditions of
the SWBPI.

       We found that Dallas County claimed and was reimbursed for cases
that were ineligible under the SWBPI guidelines. Based on the deficiencies
listed below, we identified questioned costs totaling $469,395. Specifically,
we found cases that were: (1) claimed under pre-trial detention using
excess detention days, including jail days after disposition, (2) investigated
or prosecuted concurrently, (3) not supported by the master case listing,
(4) missing case file information, (5) claimed under both prosecution and
pre-trial detention category that did not meet the requirements for pre-trial
detention, (6) not federally initiated, (7) missing jail information,
(8) submitted in the wrong quarter, (9) claimed under pre-trial detention
despite that the jail booking date occurred after disposition, (10) submitted
in the wrong reimbursement category, (11) claimed under detention awards
in excess of actual federal detention per diem rates, and (12) claimed under
prosecution awards in excess of actual prosecution rates.

       Additionally, we identified unallowable and unsupported SWBPI
reimbursements for FY 2009 that had been requested but not yet received
totaling $1,236,050. However, as stated above, we revised our analysis to
account for the $1,223,217 that OJP found to be unsupported and
unallowable, and deobligated subsequent to our audit. Of the remaining
unreimbursed funds, we identified funds to better use totaling $51,154
based on the deficiencies listed. Specifically, we found cases that were:
(1) submitted under pre-trial detention using excess detention days,
including jail days after disposition, (2) submitted under prosecution awards
in excess of actual prosecution rates, (3) investigated or prosecuted
concurrently, and (4) submitted under detention awards in excess of actual
federal detention per diem rates.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




                                      ii
                                  TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

                                                                                        

     Background .........................................................................1

                                                                                           

FINDINGS AND RECOMMENDATIONS........................................ 5

                                                                       

     Case Eligibility......................................................................5

                                                                                             
     Accuracy of Reimbursements .................................................8

                                                                                   

Recommendations .................................................................. 10

                                                                                      

APPENDIX I – OBJECTIVES, SCOPE AND METHODOLOGY........ 13

                                                          

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ... 14

                                                         

APPENDIX III – DETAILS OF QUESTIONED COSTS ................. 17

                                                                

APPENDIX IV – DETAILS OF FUNDS TO BETTER USE ............... 23

                                                                

APPENDIX V - DALLAS COUNTY RESPONSE TO THE DRAFT 

    REPORT ........................................................................... 25 


APPENDIX VI - OJP RESPONSE TO THE DRAFT REPORT .......... 30

                                                             

APPENDIX VII - OIG ANALYSIS AND SUMMARY OF ACTIONS 

    NECESSARY TO CLOSE REPORT ....................................... 36

                                                                         
               AUDIT OF OFFICE OF JUSTICE PROGRAMS 

                 SOUTHWEST BORDER PROSECUTION 

                 INITIATIVE FUNDING RECEIVED BY 

                          DALLAS COUNTY


                              INTRODUCTION 


      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to Dallas County, Texas. The objective of the audit
was to determine whether the SWBPI reimbursements received by Dallas
County were allowable, supported, and in accordance with applicable laws,
regulations, and terms and conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the importation of controlled substances at U.S. borders. Typically,
these cases were prosecuted exclusively by U.S. Attorneys in federal courts.
However, in late 1994, U.S. Attorneys, and state and local prosecutors
established partnerships through which the state and local governments
began prosecuting federally referred criminal cases. These partnerships
allowed the U.S. Attorneys to focus on addressing major drug trafficking
organizations and prosecuting deported criminal aliens who returned to the
U.S. illegally. As state and local governments began to prosecute a growing
number of federally referred criminal cases, the partnerships led to an
increased financial and resource burden. Congress recognized this problem
and began appropriating funds under the SWBPI in fiscal year (FY) 2002 to
support state and local prosecutions along the southwest border.

       For FY 2012, Congress appropriated $10 million in funding for Border
Prosecution Initiatives that includes both SWBPI and the Northern Border
Prosecution Initiative, Pub. L. No. 112-55 (2011), to reimburse state,
county, parish, tribal, or municipal governments for costs associated with
the prosecution of criminal cases declined by local U.S. Attorneys’ offices.
Reimbursements received from the SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law;
however, the direct support and enhancement of jurisdictions’ prosecutorial
and detention services are encouraged.




                                      1

      The SWBPI reimburses eligible applicants for costs incurred during
prosecution for three major categories based on the types of services
provided: (1) prosecution only, (2) pre-trial detention only, and (3) both
prosecution and pre-trial detention. For cases disposed of between FY 2002
and the second quarter of FY 2008, each eligible case submitted for either
prosecution or pre-trial detention services only received the following
maximum reimbursement, based upon the length of disposition and the
availability of funds:

     $1,250 for each case of 1 to 15 days,

     $2,500 for each case of 16 to 30 days,

     $3,750 for each case of 31 to 90 days, and

     $5,000 for each case over 90 days.

     For cases disposed of between FY 2002 and the second quarter of
FY 2008, each eligible case submitted for both prosecution and pre-trial
detention services received the following maximum reimbursement, based
upon the length of disposition and the availability of funds:

     $2,500 for each case of 1 to 15 days,

     $5,000 for each case of 16 to 30 days,

     $7,500 for each case of 31 to 90 days, and

     $10,000 for each case over 90 days.

      For cases disposed of between FY 2002 and the second quarter of
FY 2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant was required to be detained
overnight – from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must have been detained for at least 24 hours.

       For cases disposed of between the third and fourth quarters of
FY 2008, jurisdictions only received reimbursements for the actual number
of prosecutor hours charged to the case and the number of days the
defendant was detained prior to the disposition of the case. Prosecutors’
salaries charged to the case are based on the average hourly rate for the


                                     2

county’s prosecutors and cannot include fringe benefits. Detention
reimbursements are based on the number of days the defendant was
detained prior to the disposition and are calculated using the published
federal detention per diem rate for the jurisdiction.

       For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for Dallas County are
shown in Exhibit 1.

EXHIBIT 1: PRO-RATA REIMBURSEMENT BASIS TO DALLAS COUNTY
                                                                     PERCENTAGE
  REPORTING PERIOD          START DATE           END DATE            REIMBURSED
 FY07, 1st Quarter           10/01/06            12/31/06              52.34%
 FY07, 2nd Quarter           01/01/07            03/31/07              52.45%
 FY07, 3rd Quarter           04/01/07            06/30/07              49.03%
 FY07, 4th Quarter           07/01/07            09/30/07              57.26%
 FY08, 1st Quarter           10/01/07            12/31/07              86.97%
 FY08, 2nd Quarter           01/01/08            03/31/08              71.63%
 FY08, 3rd Quarter           04/01/08            06/30/08             111.05%
 FY08, 4th Quarter           07/01/08            09/30/08             109.15%
 FY09, All Quarters1         10/01/08            09/30/09                  0%
 FY10, All Quarters          10/01/09            09/30/10                100%
Source: Office of Justice Programs




       1
         Dallas County requested reimbursements totaling $1,306,584 for FY 2009.
However, based on a review conducted by OJP, $1,223,217 of the amount requested was
found to be unsupported and unallowable.


                                           3

      Dallas County received reimbursements from SWBPI funds totaling
$891,077 from FYs 2007 through 2008 and for FY 2010, as shown in
Exhibit 2.

EXHIBIT 2: REIMBURSEMENTS TO DALLAS COUNTY2
    REPORTING                                             AMOUNT              AMOUNT
      PERIOD            START DATE       END DATE        REQUESTED          REIMBURSED
 FY07, 1st Quarter       10/01/06        12/31/06        $110,000              $57,569
 FY07, 2nd Quarter       01/01/07        03/31/07          80,000               41,958
 FY07, 3rd Quarter       04/01/07        06/30/07         120,000               58,840
 FY07, 4th Quarter       07/01/07        09/30/07         120,000               68,717
 FY08, 1st Quarter       10/01/07        12/31/07          85,000               73,925
 FY08, 2nd Quarter       01/01/08        03/31/08         130,000               93,114
 FY08, 3rd Quarter       04/01/08        06/30/08         138,170              153,436
 FY08, 4th Quarter       07/01/08        09/30/08         280,382              306,032
 FY10, All Quarters      10/01/09        09/30/10          37,486               37,486
 TOTAL                                                                       $891,077
Source: Office of Justice Programs

      Additionally, Dallas County requested reimbursements totaling
$1,306,584 for FY 2009. However, based on a review conducted by OJP,
$1,223,217 of the amount requested was found to be unsupported and
unallowable. The remaining $83,367 in SWBPI funding requested by Dallas
County for FY 2009 have been approved by OJP but not yet reimbursed, as
shown in Exhibit 3.

EXHIBIT 3: REIMBURSEMENTS REQUESTED BY DALLAS COUNTY
                                                                                 AMOUNT
 REPORTING        START         END          AMOUNT            AMOUNT            TO BE
   PERIOD         DATE          DATE        REQUESTED       DEOBLIGATED       REIMBURSED
 FY09, All
                10/01/08     09/30/09     $1,306,584        $1,223,217         $83,367
 Quarters
 TOTAL                                                                         $83,367
Source: Office of Justice Programs




       2
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.


                                              4

                   FINDINGS AND RECOMMENDATIONS


      We found that Dallas County claimed and was reimbursed for
      cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were: (1) claimed under
      pre-trial detention using excess detention days, including jail
      days after disposition, (2) investigated or prosecuted
      concurrently, (3) not supported by the master case listing,
      (4) missing case file information, (5) claimed under both
      prosecution and pre-trial detention category that did not meet
      the requirements for pre-trial detention, (6) not federally
      initiated, (7) missing jail information, (8) submitted in the wrong
      quarter, (9) claimed under pre-trial detention despite that the
      jail booking date occurred after disposition, (10) submitted in
      the wrong reimbursement category, (11) claimed under
      detention awards in excess of actual federal detention per diem
      rates, and (12) claimed under prosecution awards in excess of
      actual prosecution rates. As a result, we identified questioned
      costs totaling $469,395 and funds to better use totaling
      $51,154.


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
such as the High Intensity Drug Trafficking Areas (HIDTA) and Organized
Crime Drug Enforcement Task Forces (OCDETF). The SWBPI guidelines
further state that, “referred cases are eligible regardless of whether the case
was formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or local government are
ineligible for reimbursement.

      We selected a sample of 173 cases submitted for reimbursement by
Dallas County to determine whether the cases were eligible for


                                       5

reimbursement under the requirements of the SWBPI guidelines. In
addition, we reviewed all cases submitted to determine: (1) if
reimbursements were submitted in the quarter the cases were disposed,
(2) if the cases met the pre-trial detention requirements, (3) if there was
duplicate or concurrent prosecution, (4) if cases were submitted in the
correct reimbursement category, (5) if the approved federal detention rate
was used to calculate the detention reimbursement claimed, and (6) if the
approved prosecution award was used to calculate the prosecution
reimbursement claimed.

      Based on our review, we found that Dallas County received SWBPI
funds totaling $411,831 for 158 cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines.3 A detailed listing of the
cases claimed by Dallas County that were not eligible for reimbursement is
provided in Appendix III. Specifically, we found that Dallas County:

   	 Received excess pre-trial detention reimbursements totaling $146,631
      for 25 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days. This included claims for
      pre-trial detention costs after the cases were disposed.

   	 Received unallowable reimbursements totaling $87,516 for 10 cases
      that were duplicates or investigated or prosecuted during concurrent
      periods of time with cases involving the same defendant that were also
      submitted for reimbursement.

   	 Received unsupported reimbursements totaling $55,814 for four cases
      for which supporting case information could not be located.

   	 Received excess reimbursements totaling $49,147 for 24 cases that
      were submitted under both the prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial detention.

   	 Received unallowable reimbursements totaling $33,650 for five cases
      that were not federally initiated.

   	 Received unsupported reimbursements totaling $15,387 for seven
      cases that were submitted under pre-trial detention for which the
      supporting pre-trial detention information could not be located.



       3
         Throughout this report, the number of unallowable cases detailed includes cases that
have no questioned costs because the cases were questioned previously, based on other
SWBPI reimbursement criteria.


                                             6

  	 Received unallowable reimbursements totaling $10,969 for four cases
     that were submitted in the wrong quarter.

  	 Received unallowable reimbursements totaling $6,843 for two cases
     for which the detention booking date was after the case was disposed.

  	 Received excess reimbursements totaling $3,581 for one case that was
     submitted in the wrong reimbursement category.

  	 Received excess reimbursements totaling $2,079 for 58 cases for
     which the detention rate submitted exceeded the approved federal
     detention rate for the county.

  	 Received excess reimbursements totaling $214 for 18 cases for which
     the submitted rate per attorney hour exceeded the actual rate per
     attorney hour.

      Additionally, Dallas County had unallowable and unsupported SWBPI
reimbursements that were requested for FY 2009 but yet received totaling
$1,236,050 for 165 cases. Specifically, we found cases that were:
(1) submitted under both prosecution and pre-trial detention category that
did not meet the requirements for pre-trial detention, (2) submitted under
pre-trial detention using excess detention days, including jail days after
disposition, (3) missing jail information, (4) submitted under prosecution
awards in excess of actual prosecution rates, (5) investigated or prosecuted
concurrently, and (6) submitted under detention awards in excess of actual
federal detention per diem rates.

       However, we revised our analysis to account for the $1,223,217 in
FY 2009 SWBPI funds requested by Dallas County that OJP found to be
unsupported and unallowable, and deobligated subsequent to our audit. As
a result, our report only includes our analysis related to the reimbursements
totaling $83,367 that have been approved by OJP but not yet reimbursed.
We found that Dallas County was approved for but has not yet received
SWBPI funds totaling $51,154 for 55 cases that were not eligible for
reimbursements pursuant to the SWBPI guidelines. A detailed listing of the
cases claimed by Dallas County that were not eligible for reimbursement is
provided in Appendix IV. Specifically, we found that Dallas County:

  	 Requested, but not yet received, excess pre-trial detention
     reimbursements totaling $24,987 for one case that was submitted for
     detention days in excess of the actual number of pre-trial detention
     days. This included claims for pre-trial detention costs after the case
     was disposed.


                                      7

   	 Requested, but not yet received, excess reimbursements totaling
      $18,699 for 46 cases for which the submitted prosecution rate per
      case exceeded the actual prosecution rate per case.

   	 Requested, but not yet received, unallowable reimbursements totaling
      $7,447 for six cases that were investigated or prosecuted during
      concurrent periods of time with cases involving the same defendant
      that were also submitted for reimbursement.

   	 Requested, but not yet received, excess reimbursements totaling
      $21 for two cases for which the detention rate submitted exceeded the
      approved federal detention rate for the county.

Accuracy of Reimbursements

      Dallas County requests reimbursements from SWBPI funds through an
on-line application available on the Bureau of Justice Assistance website.
Pursuant to the SWBPI guidelines, for FY 2007 eligible cases were
reimbursed using a uniform payment per case schedule based on the length
of disposition, which is calculated from the date of the suspect’s arrest
through case resolution. Resolution of the case is defined as dismissal,
conviction, or plea.

       We reviewed the reimbursement requests submitted by the Dallas
County for FY 2007 to determine if the number of cases claimed for each
disposition category was supported by the detailed case listings obtained
during fieldwork.4 Based on our review, we determined that the
reimbursement requests were not always supported by the master case
listing resulting in excess reimbursements totaling $57,564, as shown in
Exhibit 4.




       4
          We did not reconcile cases submitted to OJP after FY 2007 because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to the third quarter of FY 2008,
SWBPI recipients were only required to provide OJP the number of cases for which they
were requesting reimbursement for each disposition category.


                                              8

EXHIBIT 4: UNSUPPORTED CASES CLAIMED FOR REIMBURSEMENT FOR FY 2007
                                                                        UNSUPPORTED
                     DISPOSITION       CASES      ACTUAL                 QUESTIONED
REPORTING PERIOD     CATEGORIES       CLAIMED     CASES    DIFFERENCE      COSTS
 FY07, 1st Quarter    91 + Days         11          5           6        $31,401
 FY07, 3rd Quarter    91 + Days         12          9           3         14,710
 FY07, 4th Quarter    91 + Days         12          10          2         11,453
TOTAL EXCESS REIMBURSEMENTS                                   11        $57,564
Source: Dallas County and Office of Justice Programs




                                           9

Recommendations

       We recommend that OJP:

1.	    Remedy the $146,631 in questioned costs received by Dallas County
       for 25 cases that were submitted for detention days in excess of the
       actual number of pre-trial detention days. This included claims for
       pre-trial detention costs after the cases were disposed.

2.	    Remedy the $87,516 in questioned costs received by Dallas County for
       10 cases that were duplicates or investigated or prosecuted during
       concurrent periods of time with cases involving the same defendant
       that were also submitted for reimbursement.

3.	    Remedy the $57,564 in questioned costs received by Dallas County
       related to 11 cases claimed that were not supported by the master
       case list.

4.	    Remedy the $55,814 in questioned costs received by Dallas County for
       four cases for which supporting case information could not be located.5

5.	    Remedy the $49,147 in questioned costs received by Dallas County for
       24 cases that were submitted under both the prosecution and pre-trial
       detention category that did not meet the requirements for pre-trial
       detention.6




       5
         In its response to the draft report, Dallas County’s response provided the supporting
documentation for two cases related to this recommendation that could not be located at the
time of our audit, which remedied $45,677 of the questioned costs related to this
recommendation. As a result, the remaining questioned costs to be remedied for this
recommendation are $10,137 ($55,814 - $45,677).
       6
          In its response to the draft report, Dallas County’s response provided the supporting
documentation for two cases that could not be located at the time of our audit. However, one
of the cases was also identified as not meeting the requirements for pre-trial detention. To
avoid duplicating questioned costs associated with Recommendation 4, questioned costs
related to this case for this recommendation were originally reported as $0. Since the
questioned costs related to this case for Recommendation 4 have now been remedied, we are
including the unallowable detention portion of this case as part of the questioned costs related
to this recommendation. As a result, we identified an additional $40,174 in questioned costs
related to this recommendation, for a total of $89,321 ($49,147 + 40,174).



                                              10 

6.	    Remedy the $33,650 in questioned costs received by Dallas County for
       five cases that were not federally initiated.7

7.	    Remedy the $15,387 in questioned costs received by Dallas County for
       seven cases that were submitted under pre-trial detention for which
       the supporting pre-trial detention information could not be located.8

8.	    Remedy the $10,969 in questioned costs received by Dallas County for
       four cases that were submitted in the wrong quarter.

9.	    Remedy the $6,843 in questioned costs received by Dallas County for
       two cases for which the detention booking date was after the case was
       disposed.

10.	   Remedy the $3,581 in questioned costs received by Dallas County for
       one case that was submitted in the wrong reimbursement category.

11.	   Remedy the $2,079 in questioned costs received by Dallas County for
       58 cases for which the detention rate submitted exceeded the
       approved federal detention rate for the county.

12.	   Remedy the $214 in questioned costs received by Dallas County for
       18 cases for which the submitted rate per attorney hour exceeded the
       actual rate per attorney hour.

13.	   Remedy the $24,987 in funds to better use requested, but not yet
       received by Dallas County for one case that was submitted under pre-
       trial detention based on reporting detention days in excess of the
       actual number of pre-trial detention days. This included claims for
       pre-trial detention costs after the case was disposed.




       7
          In its response to the draft report, Dallas County’s response provided the supporting
documentation for two cases that could not be located at the time of our audit. However, a
reviewed of the supporting documentation for one of these cases revealed that the case was
not federally initiated. As a result, we identified an additional $5,234 in questioned costs
related to this recommendation, for a total of $38,884 ($33,650 + 5,234).
       8
         In its response to the draft report, Dallas County’s response provided the supporting
documentation for two cases related to this recommendation that could not be located at the
time of our audit, which remedied $7,526 of the questioned costs related to this
recommendation. As a result, the remaining questioned costs to be remedied for this
recommendation are $7,861 ($15,387 - $7,526).


                                              11 

14.	   Remedy the $18,699 in funds to better use requested, but not yet
       received by Dallas County for 46 cases for which the submitted
       prosecution rate per case exceeded the actual prosecution rate per
       case.

15.	   Remedy the $7,447 in funds to better use requested, but not yet
       received by Dallas County for six cases that were investigated or
       prosecuted during concurrent periods of time with cases involving the
       same defendant that were also submitted for reimbursement.

16.	   Remedy the $21 in funds to better use requested, but not yet received
       by Dallas County for two cases for which the detention rate submitted
       exceeded the approved federal detention rate for the county.




                                      12 

                                                              APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, and terms and conditions of
the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the reimbursements claimed
from October 1, 2006 through September 30, 2010.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Dallas County SWBPI activities in case eligibility and
compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for Dallas County as a whole. The
Single Audit Report for Dallas County was prepared under the provisions of
Office of Management and Budget Circular A-133 for the fiscal year ended
September 30, 2010. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to Dallas County or federal programs. The auditor’s assessment
disclosed one finding related to the general information technology control
environment that could potentially affect the county’s management of the
SWBPI, because SWBPI data are pulled from Dallas County databases; as a
result, we expanded our sample to account for potential concerns related to
computer processed data. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.


                                    13 

                                                             APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                 AMOUNT         PAGE

Excess reimbursements for cases that
  claimed pre-trial detention days in excess
  of actual detention days, including claims      $146,631         6
  for pre-trial detention after the disposition
  date.

Unallowable cases that were duplicates or
                                                    87,516         6
  prosecuted concurrently.

Unsupported reimbursements for cases that
  were not supported by the master case             57,564        8-9
  list.

Unsupported reimbursements for cases for
  which supporting case information could           55,814         6
  not be located.

Excess reimbursements for cases that were
  erroneously claimed as both prosecution
                                                    49,147         6
  and pre-trial detention that did not meet
  the pre-trial detention requirement.

Unallowable cases that were not federally
                                                    33,650         6
  initiated.

Unsupported detention reimbursements for
  which the supporting pre-trial detention          15,387         6
  information could not be located.

Unallowable cases that were submitted in the
  wrong quarter.                                    10,969         7


Unallowable reimbursements for cases for
  which the jail booking dates were after the        6,843         7
  cases were disposed.




                                         14 

QUESTIONED COSTS:                                              AMOUNT             PAGE

Excess reimbursements for cases that were
  submitted under the wrong reimbursement                          3,581            7
  category.

Excess detention reimbursements for cases
  that with overstated federal detention per                       2,079            7
  diem rates.

Excess reimbursements for cases that
  claimed prosecution awards in excess of                             214           7
  actual prosecution costs.
                                                              $469,395
Total Questioned Costs: 9



FUNDS TO BETTER USE:

Excess reimbursements for cases that
   claimed pre-trial detention days in excess
   of actual detention days, including claims                     24,987            7
   for pre-trial detention after the disposition
   date.

Excess reimbursements for cases that
   claimed prosecution awards in excess of                        18,699            8
   actual prosecution costs.

Unallowable cases that were prosecuted
                                                                   7,447            8
  concurrently.




        9
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.


                                             15 

                                                              AMOUNT             PAGE
FUNDS TO BETTER USE:

Excess reimbursements for cases that
   claimed detention awards based on
                                                                       21           8
   overstated federal detention per diem
   rates.
                                                               $51,154
Total Funds To Better Use:10




        10
            Funds to Better Use are requested expenditures that do not comply with legal,
  regulatory or contractual requirements, or are not supported by adequate documentation at
  the time of the audit, or are unnecessary or unreasonable. Funds to better use may be
  remedied by not approving or disallowing future payments or the provision of supporting
  documentation.


                                             16 

                                                                        APPENDIX III

                              DALLAS COUNTY
                       DETAILS OF QUESTIONED COSTS

                 CASES REIMBURSED FOR EXCESS DETENTION DAYS
            (INCLUDING DETENTION DAYS AFTER THE DISPOSITION DATE)11
                                          DETENTION
                                            DAYS            ACTUAL
                         REPORTING       REPORTED TO      DETENTION        AMOUNT
       CASE NO.           PERIOD             OJP            DAYS         QUESTIONED
     F05-45666          FY08-4TH QTR          1,382             352         $62,507
     F0668326           FY08-3RD QTR            635             235          24,697
     F06-00940          FY08-4TH QTR            193               6          11,348
     F08-88058-R        FY08-4TH QTR            175               4          10,377
     F08-88020-N        FY08-4TH QTR            189              27           9,831
     F07-00556          FY08-3RD QTR            140               3           8,459
     F0720859           FY08-3RD QTR            200              63           8,459
     F08-20261-X        FY08-3RD QTR            138               9           7,965
     F09-00764            FY 2010                49               3           2,624
     F07-00759-U        FY08-3RD QTR              9               8              62
     F08-00259-X        FY08-3RD QTR             24              23              62
     F08-00552          FY08-3RD QTR            114             113              62
     F06-00169          FY08-4TH QTR              7               6              61
     F08-00622          FY08-4TH QTR             31              30              61
     F10-00345            FY 2010                11              10              57
     F0700316           FY08-3RD QTR             74               1               0
     F0700568           FY08-3RD QTR            141               1               0
     F0800262           FY08-3RD QTR            138               9               0
     F0800551           FY08-3RD QTR            114             113               0
     F0600892           FY08-4TH QTR            662               2               0
     F0783813           FY08-4TH QTR            353              79               0
     F0783814           FY08-4TH QTR            353              79               0
     F0783922           FY08-4TH QTR            353              79               0
     F0888018           FY08-4TH QTR            151              27               0
     F0888019           FY08-4TH QTR            189              27               0
     TOTAL                                                                $146,631




       11
          The number of unallowable cases detailed includes cases that have no questioned
costs because the cases were questioned previously, based on other SWBPI reimbursement
criteria.


                                            17
CASES THAT WERE DUPLICATES OR PROSECUTED CONCURRENTLY
               REPORTING       PROSECUTION      AMOUNT
  CASE NO.      PERIOD         ONLY OR BOTH    QUESTIONED
 F0783813     FY08-4TH QTR         BOTH         $21,584
 F0783814     FY08-4TH QTR         BOTH          21,584
 F0888019     FY08-4TH QTR         BOTH          11,792
 F0888018     FY08-4TH QTR         BOTH           9,486
 F0800262     FY08-3RD QTR         BOTH           8,630
 F0800551     FY08-3RD QTR         BOTH           7,148
 F0688212     FY07-2ND QTR         BOTH           5,245
 F0800260     FY08-3RD QTR         BOTH           1,468
 F0800619     FY08-4TH QTR         BOTH             290
 F0800620     FY08-4TH QTR         BOTH             290
 TOTAL                                          $87,516



                  MISSING CASE FILES
               REPORTING        PROSECUTION       AMOUNT
  CASE NO.      PERIOD          ONLY OR BOTH    QUESTIONED
F06-00892     FY08-4TH QTR          BOTH          $40,443
F0501568      FY07-1ST QTR          BOTH            5,234
F0501567      FY07-1ST QTR          BOTH            5,234
F0501571      FY07-3RD QTR          BOTH            4,903
TOTAL                                            $55,814




                             18 

               CASES WITHOUT 24 HOURS OF DETENTION
                                 REPORTING      AMOUNT
                CASE NO.          PERIOD       QUESTIONED
              F07-00568         FY08-3RD QTR      $8,706
              F07-00316         FY08-3RD QTR       4,569
              F07-00891         FY08-1ST QTR       3,261
              FY07-00318        FY08-1ST QTR       3,261
              F0600105          FY07-4TH QTR       2,863
              F0694220          FY07-4TH QTR       2,863
              F0700153          FY07-4TH QTR       2,863
              F0694212          FY07-2ND QTR       2,622
              F0688206          FY07-2ND QTR       2,622
              F0687923          FY07-1ST QTR       2,617
              F0688424          FY07-1ST QTR       2,617
              F06-71964-H       FY07-3RD QTR       2,452
              F05-00797-P       FY07-3RD QTR       2,452
              F0501572          FY07-3RD QTR       2,452
              F0700150          FY07-3RD QTR       2,452
              F08-00444         FY08-4TH QTR         121
              F08-00442         FY08-4TH QTR         121
              F08-00445         FY08-4TH QTR          61
              F0800441            FY 2010             57
              F0916410            FY 2010             57
              F0916440            FY 2010             57
              F0501568          FY07-1ST QTR           0
              F06-00892         FY08-4TH QTR           0
              FY0663831         FY08-1ST QTR           0
              TOTAL                             $49,147



              CASES THAT WERE NOT FEDERALLY INITIATED
                                               PROSECUTION
                 INITIATING      REPORTING       ONLY OR      AMOUNT
  CASE NO.         AGENCY          PERIOD          BOTH      QUESTIONED
F07-83922-P    STATE OF TEXAS   FY08-4TH QTR   BOTH            $21,584
FY07-51025     DALLAS COUNTY    FY08-2ND QTR   BOTH              7,163
               PD
F06-37012-Q    IRVING PD        FY07-3RD QTR   BOTH              4,903
F0783813       STATE OF TEXAS   FY08-4TH QTR   BOTH                  0
F0783814       STATE OF TEXAS   FY08-4TH QTR   BOTH                  0
 TOTAL                                                        $33,650




                                   19 

                  CASES WITH NO JAIL RECORD
                           REPORTING      AMOUNT
            CASE NO.        PERIOD       QUESTIONED
            F07-00323     FY08-4TH QTR      $3,945
            F06-66883     FY08-2ND QTR       3,581
            F0501569      FY07-2ND QTR       2,622
            F0501570      FY07-2ND QTR       2,622
            F0501573      FY07-1ST QTR       2,617
            F0501567      FY07-1ST QTR           0
            F0501571      FY07-3RD QTR           0
            TOTAL                         $15,387




     CASES REIMBURSED IN THE WRONG REPORTING PERIOD
                    REPORTING     DISPOSITION     AMOUNT
     CASE NO.         PERIOD          DATE       QUESTIONED
    F0700128       FY07-2ND QTR   05/31/07          $5,245
    F0700141       FY07-2ND QTR   06/06/07           5,245
    F08-00264-X    FY08-3RD QTR   08/13/08             480
    F0501568       FY07-1ST QTR   06/29/06               0
    TOTAL                                         $10,969



               CASES WITH JAIL BOOKING DATES 

               AFTER THE CASES WERE DISPOSED 

                           REPORTING      AMOUNT
            CASE NO.        PERIOD       QUESTIONED
           FY06-44958     FY08-2ND QTR       $3,581
           FY06-63831     FY08-1ST QTR        3,261
           TOTAL                            $6,843



   CASES SUBMITTED IN THE WRONG REIMBURSEMENT CATEGORY
                                             CASE
             REPORTING    REIMBURSEMENT     LENGTH     AMOUNT
CASE NO.      PERIOD          CATEGORY      (DAYS)    QUESTIONED
F0800137   FY08-2ND QTR   31 TO 90 DAYS        5         $3,581
TOTAL                                                    $3,581




                              20 

CASES REIMBURSED FOR EXCESS DETENTION BASED

ONINCORRECT FEDERAL DETENTION PER DIEM RATES 

                     REPORTING      AMOUNT
     CASE NO.          PERIOD      QUESTIONED
 F0694001K          FY08-4TH QTR        $466
 F0673553           FY08-3RD QTR         320
 F0545666           FY08-4TH QTR         231
 F0668326           FY08-3RD QTR         157
 F1000118             FY 2011            104
 F1016798             FY 2011             98
 F0820261           FY08-3RD QTR          86
 F1000683             FY 2011             75
 F0800552           FY08-3RD QTR          75
 F0801047             FY 2011             73
 F0888043           FY08-3RD QTR          51
 F0888056           FY08-3RD QTR          46
 F0720859           FY08-3RD QTR          42
 F0888013           FY08-4TH QTR          42
 F1016819             FY 2011             35
 F0800740           FY08-4TH QTR          33
 F1000345             FY 2011             20
 F0800622           FY08-4TH QTR          20
 F0888020           FY08-4TH QTR          18
 F0800259           FY08-3RD QTR          15
 F0888051           FY08-3RD QTR           8
 F0600229             FY 2011              6
 F0900493             FY 2011              6
 F0900764             FY 2011              6
 F0700759           FY08-3RD QTR           5
 F0600221           FY08-4TH QTR           5
 F0600498             FY 2011              4
 F0916441             FY 2011              4
 F0800621           FY08-3RD QTR           4
 F0700556           FY08-4TH QTR           4
 F0901202           FY08-4TH QTR           4
 F0600235           FY08-4TH QTR           4
 F0888058           FY08-4TH QTR           3
 F0800263             FY 2011              2
 F0600940             FY 2011              2
 F0600169           FY08-3RD QTR           2
 F0800443             2008, Q4             2
 F0700316           FY08-3RD QTR           0
 F0700568           FY08-3RD QTR           0
 F0800260           FY08-3RD QTR           0
 F0800262           FY08-3RD QTR           0
 F0800264           FY08-3RD QTR           0



                    21 

                    REPORTING        AMOUNT
    CASE NO.         PERIOD        QUESTIONED
F0800551           FY08-3RD QTR            0
F0600892           FY08-4TH QTR            0
F0700323           FY08-4TH QTR            0
F0783813           FY08-4TH QTR            0
F0783814           FY08-4TH QTR            0
F0783922           FY08-4TH QTR            0
F0800442           FY08-4TH QTR            0
F0800444           FY08-4TH QTR            0
F0800445           FY08-4TH QTR            0
F0800619           FY08-4TH QTR            0
F0800620           FY08-4TH QTR            0
F0888018           FY08-4TH QTR            0
F0888019           FY08-4TH QTR            0
F0800441             FY 2011               0
F0916410             FY 2011               0
F0916440             FY 2011               0
TOTAL                                 $2,079


 CASES REIMBURSED FOR EXCESS PROSECUTION 

BASED ON INCORRECT RATE PER ATTORNEY HOUR 

                  REPORTING        AMOUNT
   CASE NO.        PERIOD         QUESTIONED
 F0700556        FY08-3RD QTR           109
 F0673553        FY08-3RD QTR            29
 F0668326        FY08-3RD QTR            22
 F0720859        FY08-3RD QTR            15
 F0700568        FY08-3RD QTR             7
 F0800259        FY08-3RD QTR             5
 F0800552        FY08-3RD QTR             5
 F0820261        FY08-3RD QTR             5
 F0888056        FY08-3RD QTR             5
 F0700316        FY08-3RD QTR             2
 F0700759        FY08-3RD QTR             2
 F0800443        FY08-3RD QTR             2
 F0888043        FY08-3RD QTR             2
 F0888051        FY08-3RD QTR             2
 F0800260        FY08-3RD QTR             0
 F0800262        FY08-3RD QTR             0
 F0800264        FY08-3RD QTR             0
 F0800551        FY08-3RD QTR             0
 TOTAL                                 $214




                   22 

                                                           APPENDIX IV

                      DALLAS COUNTY

              DETAILS OF FUNDS TO BETTER USE 


         CASES REIMBURSED FOR EXCESS DETENTION DAYS
     (INCLUDING DETENTION DAYS AFTER THE DISPOSITION DATE)
                          DETENTION DAYS        ACTUAL
             REPORTING    SCHEDULED TO BE      DETENTION    FUNDS TO
 CASE NO.     PERIOD     REIMBURSED BY OJP       DAYS      BETTER USE
F0783918      FY 2009                 469             22     $24,987
TOTAL                                                       $24,987



          CASES REIMBURSED FOR EXCESS PROSECUTION 

        BASED ON INCORRECT PER CASE PROSECUTION RATES

                                         REPORTING    FUNDS TO
                CASE NO.                  PERIOD     BETTER USE
     AN EXCESS RATE OF $467 FOR ALL
     PROSECUTION CASES SCHEDULED TO BE
     REIMBURSED BY OJP (EXCEPT BELOW)     FY 2009      $18,699
     F07078350                            FY 2009            0
     F07083550                            FY 2009            0
     F0783917                             FY 2009            0
     F0888037K                            FY 2009            0
     F0888059                             FY 2009            0
     F0888129Y                            FY 2009            0
     TOTAL                                            $18,699



            CASES THAT WERE PROSECUTED CONCURRENTLY
                   REPORTING    PROSECUTION ONLY      FUNDS TO
     CASE NO.       PERIOD           OR BOTH         BETTER USE
    F07078350       FY 2009      PROSECUTION ONLY        $1,241
    F07083550       FY 2009      PROSECUTION ONLY         1,241
    F0783917        FY 2009      PROSECUTION ONLY         1,241
    F0888037K       FY 2009      PROSECUTION ONLY         1,241
    F0888059        FY 2009      PROSECUTION ONLY         1,241
    F0888129Y       FY 2009      PROSECUTION ONLY         1,241
    TOTAL                                               $7,447




                                23 

CASES REIMBURSED FOR EXCESS DETENTION BASED

ONINCORRECT FEDERAL DETENTION PER DIEM RATES 

                     REPORTING     FUNDS TO
     CASE NO.         PERIOD      BETTER USE
 F0783918             FY 2009           $20
 F0888055             FY 2009             1
 TOTAL                                  $21




                    24 

                                                                                                     APPENDIX V

DALLAS COUNTY RESPONSE TO THE DRAFT REPORT




                     DALlAS COUNIY JUDGE CIAY LEwIs JENKINS


                                           March 6, 20 12

 David M. Shee ren
 Reg ional A udit Manager
 Denver Regio nal Aud it OtTi ce
 Office of the In specto r Genera l
 U.S. Department of Ju stice
 11 20 Linco ln , Suite J 500
 Denver, CO 80203
 Em ail: Dav id.M.Sheeren@ usdoi .gov

 Dear Mr. Sheeren:

 Pl ease find attached the Dallas Co unty' s respo nse to the U.S . Department of Justice (DOJ),
 Office of the In spector General (OIG), Denver Regional A udit Office draft a ud it re po rt that
 was issued o n February 14, 2012 to the Office of Justice Program s (OJP), re lated to an audit
 of the Southwest Border Prosecution Initiative fun din g, rece ived by Dalla s Co unty (County) .

 Dal las County responded to the 16 recomm endations, $469,395 in questioned costs, and
 $5 1, 133 in funds put to better usc. Dal las County concurs with 13 reco mmendatio ns and
 requests a waiver lor 3 recommendati ons (Items #4, #7, and #8).

 If you should have any questions please contact Rya n Brown, Budget Directo r, at 2 1 4~ 65 3-
 6384. Thank you fo r you r consideration.

 Sincerely,




 C lay Jenkin s, County Judge
 Dallas County
 4 11 Elm Street
 Administration Buildin g
 Dallas, Texas 75202




                                Dallas County Administration Building
  411 Elm Street                          Dallas, TX 75202                       (214)653-7949




                                                   25 

DALLAS COUNTY RESPONSES TO DRAFT AUDIT

1. Remedy the $146,631 in questioned costs received by Dallas County for
25 cases that were submitted for detention days In excess of the actual
number of pre-trial detention days. This included claims for pre-trial
detention costs after the cases were disposed.

Dallas County concurs with recommendation: The Dallas County District Attorney's
Office Administrative Attorney will provide review and oversight of all data collected
for submission to SWBPI. All staff will be train on the proper way of reporting pre­
trial detention based on SWBPI guidelines.

2. Remedy the $87,516 in questioned costs received by Dallas County for
10 cases that were duplicates or investigated or prosecuted during
concurrent periods of time with cases involving the same defendant that
were also submitted for reimbursement.

Dallas County concurs with recommendation: The Dallas County District Attorney's
Office Administrative Attorney will provide review and oversight of all data collected
for submission to SWBPI. T he Dallas County District Atto rne y's Office
Administrative Attorney will train the designated staff regarding submission of only
one case per defendant.

3. Remedy the $57,564 in questioned costs received by Dallas County
related to 11 cases claimed that were not supported by the master case
list.

Dallas County concurs with recommendation : The Dallas County District Attorney's
Office Administrative Attorney will develop retention guidelines of all cases that are
submitted. All case files of cases that were submitted to SWBPI will be retained for
seven years after submission date.

4. Remedy the $55,814 in questioned costs received by Dallas County for
four cases for which supporting case information could not be located.

Dallas County requests a waive r on these questioned costs. The add itional two
cases were located and attached as case file F0600892 and F0501568.

In addition, Texas Code of Criminal Procedure Article 55.02 § 5(t) mandates that
"On Receipt of an order granting expunction to a pe rson entitled to expunction
under Article 55.01(d), each officia l, agency, or other governmental entity named
in the order: Shall: (A) obliterate all portions of the record or file that identify the
petitioner." The District Attorney's Office routinely destroys all case files when
orde red to do so and will continue that procedure . One of the four cases refe rred
to in this finding was one that was ordered expunged.

The Texas Government Code § 411.081 allows an individual who has successfully
co mp leted deferred adjudication community supervision to petition the court that
placed the individua l on probation for an order of nondisclosure. An order of




                                         26 

nondisclosure prohibit s criminal justice agencies from disclosing to the public
criminal history record information related to an offense. Disclosure is allowed to
law enforcement agencies only for a law enforcement purpose. An auditor is not a
law enforceme nt person as defined and thus the co ntents of t he file cannot be
disclosed. One of the four cases referred to in this finding has an order of non­
disclosure.

5. Remedy the $49, 147 in questioned costs received by Dallas County for
24 cases that were subm i tted unde r both the prosecution and pre -trial
detention category that did not meet the requirements for pre-trial
detention.

Dallas County concurs with recommendation: The Dallas County District Attorney's
Office Administrative Attorney will provide final oversight of all cases that are
submitted to SWBPl to ensure prosecution and pre-trial detention (p re-trial requires
24 hour detention) reimbursement rates are accurate.

6 . Rem edy the $ 33, 650 in que stioned costs r eceive d by Dallas County for
five cases that were not federally initiated.

Dallas County concurs with recommendation: The Dallas County District Attorney's
Office Administrative Attorney will verify that all cases submitted to SWBPI were
federally initiated with the supporting documentation.

7 . Remedy the $15,387 in questioned costs received by Dallas County for
se v e n ca ses that were submitte d unde r pre-tria l d et e ntion for whi c h the
supporting pre-trial dete ntion information could not be located.

Dallas County requests a waiver on these questioned costs. The additional two
cases were located and attached as case file F0666883 and F0700323.

In addition, Texas Code of Criminal Procedure Article 55.02 § 5(f) mandates that
"On Receipt of an order granting expunction to a person entitled to expunction
under Article 55.01(d), each officia l, agency, or other governmental entity named
in the order: Shall: (A) obliterate all portions of the record or file tha t identify the
petitioner." The District Attorney's Office routinely destroys all case files when
ordered to do so and will continue that procedure.

The Texas Government Code § 411.081 allows an individual who has successfully
completed deferred adjudication commun ity supervision to petition the court that
placed the individual on probation for an order of nondisclosure. An order of
nondisclosure prohibits criminal justice agencies from disclosing to the public
criminal history record information related to an offense. Disclosure is allowed to
law enforcement agencies only for a law enforcement purpose. An auditor is not a
law enforcement person as defined and thus the contents of the file cannot be
disclosed.




                                                                                            2




                                         27 

8. Remedy the $10,969 In questioned costs received by Dallas County for
four cases that were submitted in the wrong quarte r.

Dallas County requ est s consideration fo r th e fou r cases, if eligible, t o be re ­
submitted for the appropriate quarters.

9. Remedy the $6,843 for two cases for which the detention booking date
was after the case was disposed.

Dallas County concurs with recommendation: District Attorney's Office
Adm inistrative Attorney will verify the booking and disposed dates.

10. Remedy the $3, 581 In questioned costs received by Dallas County for
one case that was submitted in the wrong reimbursement category.

Dallas County concurs w it h recommendation: The Dallas County District Attorney's
Office Administrative Attorney will review all cases being subm itted for
reimbursement to ensure that the proper way of reporting pre- trial detention
based on SWBPI guidelines for reimbursement of the correct category .

11. Remedy the $2, 079 in questioned costs received by Dallas County for
58 cases for which the detention rate submitted exceeded the approved
federal detention rate for the county.

Dallas County concurs with recommendation: The Office of Budget and Eva luation
will confirm t hat t he daily jail ra te is the amount t hat is computed an nually and
does not exceed t he ap proved fed eral detention rate for t he cou nty .

12. Remedy the $214 in questioned costs received by Dallas County for 18
cases for which the submitted rate per attorney hour exceeded the actual
rate per attorney hour.

Dallas County concurs w ith recommendation : The Auditor's Office Payroll w ill
prov ide the actual sa lary for all reimbursable employees.

13. Remedy the $24,987 In funds to better use requested, but not yet
received by Dallas County for one case that was submitted under pre-trial
detention based on reporting detention days in excess of the actual
number of pre-trial detentio n days. This included claims f o r p r e-trial
detention costs after the case was disposed.

Dallas County concurs with recommendation : District Attorney's Office
Administ rat ive Attorney w ill ver ify t he booking and disposed dates . Th e Dallas
County District Atto rney's Office wi ll verify that the proper way of reporting pre­
tria l detention is based on SWBPI guidelines for reimbursement of the correct
category.




                                                                                         3




                                           28 

14. Remedy the $18,699 in funds to better use requested, but not yet
received by Dallas County for 46 for which the submitted prosecution rate
per case exceeded the actual prosecution rate per case.

Dallas County concurs with recommendation: The Audi t or's Office Payroll will
provide the actual salary for all reimbursable employees.


15. Remedy the $7,447 in funds to better use requested, but not yet
received by Dallas County for six cases that were Investigated or
prosecuted during concurre nt periods of time with cases involving the
same defendant that were also submitted for reimbursement.

Dallas County concurs with recommendation: Dallas County District Attorney's
Office Administrative Att orney will provide f inal review of all cases submitted to
SWBPI to ensure that multiple cases will not be submitted for t he same defendant.

16. Remedy the $21 in funds to better use requested, but not yet re ceived
by Dallas County for two cases for which the detention rate submitte d
exceeded the approved federal detention rate for the county.


Dallas County concu r s with recommendation : Th e Office of Budget and Eva luation
will confirm that the daily jail rate is the amount that is computed annually and
does not exceed the approved federal detention rate for the county.




                                                                                       4




                                      29 

                                                                                                    APPENDIX VI

              OJP RESPONSE TO THE DRAFT REPORT
                                                  U.S. Depa rtment of Ju stice

                                                  Office of Ju stice Programs

                                                  Office of Audil, Assesslllelll, and Managemelll




MAR 1 4 2012



MEMOR.<l.NDUM TO:            David M. Sbeeren
                             Regional Audit Manager
                             Denver Region~l Audit Office
                             Office of the Inspector General

FROM:
                       &~i:'':AH~'becgU1k:~~
SUBJECT:                     Response to the Draft  AU~eport,   Audll ofOffice ofJUStice
                             Programs $oulhwe.'ll Border Prosecution inilialil'e Funding.
                             Received by Dalias County, Texas

This memorandum is in response to your correspondence, dated February J 4, 2012, transmitting
the subject draft audit repon for Dallas County (County). We consider the subject repon
resolved and request written acceptance of this action from your office.

As a result ofthe DIG 's audit of the Southwest Border Prosecution Initiative (SWBPI) program
in fiscal yean; (FYs) 2008 and 2010, the Bureau of Justice Assisumce (BlA): 1) modi fied the
swaP! application system on October 6, 2008, 10 require that each prosecution case subm ined
by a jurisdiction for reimbursement contain the case/docket number, defendant's firs! and last
nwne, referring federal agency, referred date, resoluti on type and the resolved date; and
2) established new internal guidelines on lune 9, 201 0, to ensure that SWBPI reimbursements are
analyLe<i to identify anomalies that may indicate unallowable or unsupponed payments to
specific jurisdictions.

in FY 2011, DIP's Office of Audit, Assessment. and Management (OAAM) conducted II revi ew
ofBJA's SWBP] application review process. OAAM detennined that IlJA 's internal procedures
to verify the eligibility and accuracy ofSWBP] applications arc effective. However, OAAM
recommended that BlA implement a process to identify overlapping requests for detention
expenses between SWap] and the State Crimina! Alien Assistance Program (SCAM). As II
result, in the FY 201 1 applicaiion cycle, BlA reviewed tbe list of individuals submitted by each
jurisdiction that requested reimbursement for detention expcnses under both programs. The
review found duplication in the Swap] and SCAM applications requests. The amounts




                                                   30 

identified were removed from the total application value of the SWBPI applications prior to
award. Further, BJA will continue this review process in future application cycles to prevent
duplication.

It should also be noted that a significant number of ineligible S WRP I cases, identified by the
OIG during the audit, were for cases submitted by the County prior to changes that i3JA
impletncnted for the SWBP! pml,'TaID beginning in October 200&'

The report contains 16 recommt:ndations and $469,395 in qucs.tioned costs, and $51 ,154 in funds
put to better use. The following i~ the Office of Justice Programs ' (OJI') analysis of the draft
audi t report recommendations. For ease of review, the recommendations are restated in bold and
are followed by our response.

I.     We recommend that OJP remed y the $ 146,631 in questioned costs received b y
       Dallas County for 25 ca~es that were submitted for detention days iJl excess of the
       actual number of pre-trial detention days. Tbis included claims for pre-trial
       detention costs after the cases were disposed.

       We agree wi th the recommendation. We will coordinate with the County to remedy the
       S146,631 in questioned costs related to the 25 cases that were submitted for detention
       days in excess of the actual number of pre-trial detention days.

2.     We I·ecommelld tbat OJP remedy the $87,5J6 in questioned costs received by Dallas
       County for 10 cllses that were duplicates, or investigated or prosecuted during
       concu rrent periods of time with cases involving the same defendant tbat were also
       submitted for reimbursement.

        We agree with the recommendation. We will coordinate with the County to remedy the
        $87,516 ill questioned costs related to tht: 10 cases that were duplicates, or invt:stigated or
        prosecuted during concurrent periods of time with cases involving the same defendant
        that wc:rc also submitted for reimbursement.

3.      \Ve recommend that OJP remedy the $57,564 in Iluestioned costs received by Dallas
        County related to II cases claimed that were not supported h y the master case list.

        We agree with the recommendation. We wil! coordinate with the County to remedy the
        $57,564 in questioned costs related to the II cases claimed that werc not supported by thc
        maste r case list.

4.      We recommend tlia! OJP remed y tltc S55,814 in questioned costs received b y Dallas
        Coun ty for four cases for which supporting case information could not be located.




                                                   2




                                                 31 

      We agree with the recommendation. We will coordinate with the County to remedy the
      $55,814 in questioned costs related to the four cases for which supporting case
      information could not be located.

5.    We recommcnd that OJ P remedy the $49,147 in questioued costs recei ved by Dallas
      County for 24 cases that were submitted under hoth th e prosecution and pre-trial
      detention categories thai did not meet the requirements for pre-trial detention.

      We agree with the recommendation. We wiil coordinate with the County to remedy the
      $49,147 in questioned costs related to the 24 eases that were submitted under both the
      prosecution and pre-trial detention categories that did nO! meet the requirements for
      pre-trial detention.

6.    We recommend that OJP remetl y the 533,650 in qucstioned costs received by Dallas
      County for five cases that were not Federally initiated.

      We agree with the recom mendation. We will coordinate with the County to rt.'TTletiy the
      $33,650 in questioned costs related to the five cases that were not Federally initiated.

7.    We recommend that OJP remedy the 515,387 in questioned costs received by Dallas
      County for seven cases that were submitted under pre-trial detention for which the
      supporting pre-trial detelltiou information coultl 1I0t be located.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $15,387 in questioned costs related 10 Ihe seven cases thaI were submitted under pre-trial
      dctcnlion for which the supporting pre-trial detention infonnation could not be located.

8.    We recommend that OJP remedy the $10,969 ill questioned costs received by Dallas
      County for four cases that wcrr submitted in the wrong quanr r.

      We agrt.:e with the recommendation. We will coordinate wi th the County to remedy the
      $10,969 in questioned costs related to the four cases Ihat were submitted in Ihc wrong
      quarter. In previous cases, OI P has not required funds to be returned for cases submitted
      in the wrong quarter, if all of the other case requirements were met.

9.    We recommend tbat oJl> remedy the 56,843 fOI· two cases for which the detention
      booking date was after the case was disposed.

      We agree with the recommendation. We will coordinate wi th the County to remedy the
      $6,843 in questioned costs related to the two cases for which the dispoSition date
      preceded the detention booking dale.

10.   We recommend that OJP remed y the $3,581 ill questioned eosts received by DalJas
      County for OIlC case that was submitted in the wfong reimbursement category.


                                               3




                                              32 

      We agree with the recommendation. We will coordinate with the County to remed y the
      $3,581 in questioned costs received for one case that was submitted in the wrong
      reimhursement category.

11.   We rNo mmend that OJP remedy the S2,079 in questioned costs recei ved b y Dallas
      Cou.n ty for 58 cases for which tbe d etention rate submitted exceeded the a pproved
      Federal detention rate for the County.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $2,079 in questioned costs for the 58 cases for which the detention rate submitted
      eXL"t:ooed the approved Federal detention rate for the County.

12.   We recommend thai O.IP remed y the $214 in questioned costs received by Dallas
      C ounty fOT 18 cases fOT w hich the submitted rate peT attoruey hour exceed ed the
      actual rale per atto rney hOUT.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $214 in questioned costs related 10 the 18 cases for which the submitted rate per attorney
      hour exceeded the actual rate PL" attorney hour.

13.   ·We recommend that OJP remedy the $14,987 in funds to better use requested, but
      not yet received by Da llas COUDt)', for one ease that was submitted under proe-trial
      detention based on r cporting detcntion da ys ill excess of the aetuailiumbe r o f
      pre-tri al detelltioll d ays. This iucluded claims for pre-trial detention costs after
      the case was disposed.

      We agree with the recommendation. We will coordinate with the County to remed y the
      $24,987 in funds to he put to hetter usc that were requested, but not yet received, for the
      one case thm was submitted under pre-trial detention based on reporting detention days in
      excess of the actual number of pre-trial detention days.

14.   \ Ve recommend th at Q.IP .·emedy the $18,699 in funds to hetter use requested, but
      not ye t recch'cd by Dallas County, for 46 cases for which thc submitted prosecution
      ra te per case exceeded the act ual prosecution ra te per case.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $18,699 in funds to be put to better use that were requested, but not yet received, for the
      46 cases for which the submitted prosecution rate per casc exceeded the actual
      prosecution rate per case.

15.   We recommend that OJP remedy the S7,447 in funds to better usc requested, but
      not yet received b y Dallas C OUllt)', for six cases that were inves tigated or prosecuted
      durillg eoncnrrent periods of time with cases involving the same defendant t hat
      were also submitted for reimbursement.


                                                4




                                              33 

       WI! agree with the recommendation. We will coordinate with the County to remedy the
       $7,447 in funds to be PUIIO better use that were requested, but not yet m::eived, for the
       si)( cases that were investigated or prosecuted during concurrent periods of time with
       cases involving the same.defendant that were also submitted for reimbursement.

16.    We r ecommend that OJP remed y th e S21 in fund s to bener usc r equest ed, but nol
       yet r eceived by Dallas Co unty for two cases for which the detention rate submitted
       exceeded t he approved Federal dete ntion f ate for the C ounty.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $21 in funds to be put to better use, which were requested by the County, but not yet
       received, for the two cases that were submitted that had a detention rate which exceeded
       the approved Federal detention rate for the County.

We appreciate the opportunity to review and comment on the draft audit report. ]fyou h ave any
questions or n::quirl! additional infonnation, please contact Jeffery A . Haley, Deputy Dir=tor,
Audit and Review Division, on (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Officc of Audlt, Assessmcnt, and Manag(.'I1lcnl

       Tracey Trautm&}
       Acting Deputy Director for Programs
       Bureau of Justice As~istance

       Esmeralda Womack
       Division Chief
       Bun:au of Justice Assistance

       Amanda loCicero
       Budget Analy~t
       Bureau of Justice Assistance

       Joseph Husted
       Policy Advisor
       Bureau of Justice Assistance

       Maria Anderson
       Slale Policy Advisor
       Bureau of Justice Assistance




                                                5




                                               34 

cc:   Louise Duhamel, Ph.D.
      Acting DireGtor, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20120194




                                              6




                                              35 

                                                                        APPENDIX VII

                     OFFICE OF THE INSPECTOR GENERAL 

                    ANALYSIS AND SUMMARY OF ACTIONS 

                       NECESSARY TO CLOSE REPORT 


       The OIG provided a draft of this audit report to OJP and Dallas County,
Texas. OJP’s response, included as Appendix VI of this report, states that,
“It should also be noted that a significant number of ineligible SWBPI cases,
identified by the OIG during the audit, were for cases submitted by the
County prior to changes that BJA implemented for the SWBPI program
beginning in October 2008.” We recognize the changes that OJP made to
the SWBPI program in October 2008 based on recommendations provided in
a prior OIG report.12 However, questioned costs related to the ineligible
cases submitted prior to 2008 must still be remedied. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number

   1.	 Resolved. OJP concurred with our recommendation to remedy the
       $146,631 in questioned costs received by Dallas County for 25 cases
       that were submitted for detention days in excess of the actual number
       of pre-trial detention days. This included claims for pre-trial detention
       costs after the cases were disposed. OJP stated in its response that
       they will coordinate with Dallas County to remedy the $146,631 in
       questioned costs related to the 25 cases that were submitted for
       detention days in excess of the actual number of pre-trial detention
       days.

           This recommendation can be closed when we receive documentation
           that OJP remedied the $146,631 in questioned costs received by
           Dallas County for 25 cases that were submitted for detention days in
           excess of the actual number of pre-trial detention days.

   2.	 Resolved. OJP concurred with our recommendation to remedy the
       $87,516 in questioned costs received by Dallas County for 10 cases
       that were duplicates or investigated or prosecuted during concurrent
       periods of time with cases involving the same defendant that were
       also submitted for reimbursement. OJP stated in its response that


      12
          U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008). 



                                           36 

    they will coordinate with Dallas County to remedy the $87,516 in
    questioned costs related to the 10 cases that were duplicates or
    investigated or prosecuted during concurrent periods of time with
    cases involving the same defendant that were also submitted for
    reimbursement.

    The recommendation can be closed when we receive documentation
    that OJP remedied the $87,516 in questioned costs received by
    Dallas County for 10 cases that were duplicates or investigated or
    prosecuted during concurrent periods of time with cases involving the
    same defendant that were also submitted for reimbursement.

3.	 Resolved. OJP concurred with our recommendation to remedy the
    $57,564 in questioned costs received by Dallas County related to
    11 cases claimed that were not supported by the master case list.
    OJP stated in its response that they will coordinate with Dallas
    County to remedy the $57,564 in questioned related to the 11 cases
    claimed that were not supported by the master case list.

    The recommendation can be closed when we receive documentation
    that OJP remedied the $57,564 in questioned costs received by
    Dallas County related to 11 cases claimed that were not supported by
    the master case list.

4.	 Resolved. OJP concurred with our recommendation to remedy the
    $55,814 in questioned costs received by Dallas County for four cases
    for which supporting case information could not be located. OJP
    stated in its response that it will coordinate with Dallas County to
    remedy the $55,814 in questioned costs related to the four cases for
    which supporting case information could not be located.

    Dallas County’s response, included as Appendix V of this report,
    specifies that in accordance with Texas Code of Criminal Procedure
    one case file was ordered expunged, meaning it was destroyed, and
    that in accordance with Texas Government Code one case file was
    part of an order of nondisclosure, meaning it was not available for
    review outside of a law enforcement purpose. According to SWBPI
    guidelines, supporting case information must be maintained for
    3 years after the case is submitted for reimbursement. Additionally,
    any cases that do not have the corresponding court and arrest
    records will not be considered for SWBPI funding. Dallas County also
    included supporting documentation that was sufficient to remedy two
    cases – Case Nos. F0501568 and F0600892 – totaling $45,677 that
    were included in our questioned costs. Therefore, the remaining


                                 37 

    questioned costs for remedy in association with this recommendation
    are $10,137 ($55,814 - $45,677).

    This recommendation can be closed when we receive documentation
    that OJP remedied the remaining $10,137 in questioned costs
    received by Dallas County for the remaining two cases for which
    supporting case information could not be located.

    A review of the supporting documentation for the two cases identified
    above resulted in additional questioned costs in Recommendations
    5 and 6, which are described in detail below.

5.	 Resolved. OJP concurred with our recommendation to remedy the
    $49,147 in questioned costs received by Dallas County for 24 cases
    that were submitted under both the prosecution and pre-trial
    detention category that did not meet the requirements for pre-trial
    detention. OJP stated in its response that it will coordinate with
    Dallas County to remedy the $49,147 in questioned costs related to
    the 24 cases that were submitted under both the prosecution and
    pre-trial detention category that did not meet the requirements for
    pre-trial detention.

    Dallas County’s response, included as Appendix V of this report,
    included supporting documentation that was sufficient to remedy the
    questioned costs for Case No. F0600892 related to
    Recommendation 4. However, this case was also one of the 24 cases
    identified as not meeting the requirements for pre-trial detention. To
    avoid duplicating questioned costs associated with
    Recommendation 4, questioned costs related to this case for this
    recommendation were originally reported as $0. Since the
    questioned costs related to this case in Recommendation 4 are now
    remedied, we are including the detention portion of this case as part
    of questioned costs related to this recommendation. As a result, we
    identified an additional $40,174 in questioned costs received by
    Dallas County related to this recommendation, for a total of $89,321
    ($49,147 + 40,174).

    The recommendation can be closed when we receive documentation
    that OJP remedied the $89,321 in questioned costs received by
    Dallas County for 24 cases that were submitted under both the
    prosecution and pre-trial detention category that did not meet the
    requirements for pre-trial detention.




                                  38 

6.	 Resolved. OJP concurred with our recommendation to remedy the
    $33,650 in questioned costs received by Dallas County for five cases
    that were not federally initiated. OJP stated in its response that it
    will coordinate with Dallas County to remedy the $33,650 in
    questioned costs related to the five cases that were not federally
    initiated.

    Dallas County’s response, included as Appendix V of this report,
    included supporting documentation that was sufficient to remedy the
    questioned costs for Case No. F0501568 related to
    Recommendation 4. However, a review of the supporting
    documentation revealed that the case was initiated by the State of
    Texas, not a federal agency, meaning the case was not federally
    initiated. Therefore, we identified an additional $5,234 in questioned
    costs received by Dallas County related to this recommendation, for
    a total of $38,884 ($33,650 + 5,234).

    The recommendation can be closed when we receive documentation
    that OJP remedied the $38,884 in questioned costs received by
    Dallas County for six cases that were not federally initiated.

7.	 Resolved. OJP concurred with our recommendation to remedy the
    $15,387 in questioned costs received by Dallas County for seven
    cases that were submitted under pre-trial detention for which the
    supporting pre-trial detention information could not be located. OJP
    stated in its response that it will coordinate with Dallas County to
    remedy the $15,387 in questioned costs related to the seven cases
    that were submitted under pre-trial detention for which the
    supporting pre-trial detention information could not be located.

    Dallas County’s response, included as Appendix V of this report,
    specifies that in accordance with Texas Code of Criminal Procedure,
    the county destroys all case files related to expunction. Additionally,
    in accordance with Texas Government Code, an order of
    nondisclosure prohibits the review of case files outside of a law
    enforcement purpose. According to SWBPI guidelines, supporting
    case information must be maintained for 3 years after the case is
    submitted for reimbursement. Additionally, any cases that do not
    have the corresponding court and arrest records will not be
    considered for SWBPI funding. Dallas County also included
    supporting documentation that was sufficient to remedy two cases –
    Case Numbers F06-66883 and F07-00323 – totaling $7,526 that
    were included in our questioned costs. Therefore, the remaining



                                  39 

     questioned costs for remedy in association with this recommendation
     are $7,861 ($15,387 - $7,526).

     This recommendation can be closed when we receive documentation
     that OJP remedied the remaining $7,861 in questioned costs received
     by Dallas County for the remaining five cases submitted under pre-
     trial detention for which the supporting pre-trial detention
     information could not be located.

8.	 Resolved. OJP concurred with our recommendation to remedy the
    $10,969 in questioned costs received by Dallas County for four cases
    that were submitted in the wrong quarter. OJP stated in its response
    that it will coordinate with Dallas County to remedy the $10,969 in
    questioned costs related to the four cases that were submitted in the
    wrong quarter.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $10,969 in questioned costs received by
     Dallas County for four cases that were submitted in the wrong
     quarter.

9.	 Resolved. OJP concurred with our recommendation to remedy the 

    $6,843 in questioned costs received by Dallas County for two cases 

    for which the detention booking date was after the case was 

    disposed. OJP stated in its response that it will coordinate with 

    Dallas County to remedy the $6,843 in questioned costs related to 

    the two cases for which the disposition date preceded the detention 

    booking date. 


     The recommendation can be closed when we receive documentation
     that OJP remedied the $6,843 in questioned costs received by Dallas
     County for two cases for which the detention booking date was after
     the case was disposed.

10.	 Resolved. OJP concurred with our recommendation to remedy the
     $3,581 in questioned costs received by Dallas County for one case
     that was submitted in the wrong reimbursement category. OJP
     stated in its response that it will coordinate with Dallas County to
     remedy the $3,581 in questioned costs received for one case that
     was submitted in the wrong reimbursement category.




                                   40 

     The recommendation can be closed when we receive documentation
     that OJP remedied the $3,581 in questioned costs received by Dallas
     County for one case that was submitted in the wrong reimbursement
     category.

11.	 Resolved. OJP concurred with our recommendation to remedy the
     $2,079 in questioned costs received by Dallas County for 58 cases for
     which the detention rate submitted exceeded the approved federal
     detention rate for the county. OJP stated in its response that it will
     coordinate with Dallas County to remedy the $2,079 in questioned
     costs for the 58 cases for which the detention rate submitted
     exceeded the approved federal detention rate for the county.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $2,079 in questioned costs received by Dallas
     County for 58 cases for which the detention rate exceeded the
     approved federal detention rate for the county.

12.	 Resolved. OJP concurred with our recommendation to remedy the
     $214 in questioned costs received by Dallas County for 18 cases for
     which the submitted rate per attorney hour exceeded the actual rate
     per attorney hour. OJP stated in its response that it will coordinate
     with Dallas County to remedy the $214 in questioned costs related to
     the 18 cases for which the submitted rate per attorney hour
     exceeded the actual rate per attorney hour.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $214 in questioned costs received by Dallas
     County for 18 cases for which the submitted rate per attorney hour
     exceeded the actual rate per attorney hour.

13.	 Resolved. OJP concurred with our recommendation to remedy the
     $24,987 in funds to better use requested, but not yet received by
     Dallas County for one case that was submitted under pre-trial
     detention based on reporting detention days in excess of the actual
     number of pre-trial detention days. This included claims for pre-trial
     detention costs after the case was disposed. OJP stated in its
     response that it will coordinate with Dallas County to remedy the
     $24,987 in funds to better use requested, but not yet received for
     the one case that was submitted under pre-trial detention based on
     reporting detention days in excess of the actual number of pre-trial
     detention days.




                                   41 

     The recommendation can be closed when we receive documentation
     that OJP remedied the $24,987 in funds to better use requested, but
     not yet received by Dallas County for one case that was submitted
     under pre-trial detention based on reporting detention days in excess
     of the actual number of pre-trial detention days.

14.	 Resolved. OJP concurred with our recommendation to remedy the
     $18,699 in funds to better use requested, but not yet received by
     Dallas County for 46 cases for which the submitted prosecution rate
     per case exceeded the actual prosecution rate per case. OJP stated
     in its response that it will coordinate with Dallas County to remedy
     the $18,699 in funds to better use requested, but not yet received
     for the 46 cases for which the submitted prosecution rate per case
     exceeded the actual prosecution rate per case.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $18,699 in funds to better use requested, but
     not yet received by Dallas County for 46 cases for which the
     submitted prosecution rate per case exceeded the actual prosecution
     rate per case.

15.	 Resolved. OJP concurred with our recommendation to remedy the
     $7,447 in funds to better use requested, but not yet received by
     Dallas County for six cases that were investigated or prosecuted
     during concurrent periods of time with cases involving the same
     defendant that were also submitted for reimbursement. OJP stated
     in its response that it will coordinate with Dallas County to remedy
     the $7,447 in funds to better use requested, but not yet received for
     the six cases that were investigated or prosecuted during concurrent
     periods of time with cases involving the same defendant that were
     also submitted for reimbursement.

     The recommendation can be closed when we receive documentation
     that OJP remedied the $7,447 in funds to better use requested, but
     not yet received by Dallas County for six cases that were investigated
     or prosecuted during concurrent periods of time with cases involving
     the same defendant that were also submitted for reimbursement.

16.	 Resolved. OJP concurred with our recommendation to remedy the
     $21 in funds to better use requested, but not yet received by Dallas
     County for two cases for which the detention rate submitted
     exceeded the approved federal detention rate for the county. OJP
     stated in its response that it will coordinate with Dallas County to
     remedy the $21 in funds to better use requested, but not yet


                                   42 

received for the two cases that had a detention rate which exceeded
the approved federal detention rate for the county.

The recommendation can be closed when we receive documentation
that OJP remedied the $21 in funds to better use requested, but not
yet received by Dallas County for two cases for which the detention
rate submitted exceeded the approved federal detention rate for the
county.




                             43 

